         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report



       Independent Ground Water
       Sampling Generally Confirms
       EPA’s Data at Wheeler Pit
       Superfund Site in Wisconsin

       Report No. 10-P-0218

       September 8, 2010




                         DRAFT
               NOT TO BE RELEASED OUTSIDE EPA
Report Contributors:                       Carolyn Copper
                                           Patrick Milligan
                                           Jayne Lilienfeld-Jones
                                           Martha Chang
                                           Denise Rice




Abbreviations

DEHP           Di(2-ethylhexyl) phthalate
EPA            U.S. Environmental Protection Agency
NPL            National Priorities List
OIG            Office of Inspector General


Cover photo:      Fence surrounding site boundary at the Wheeler Pit Superfund Site
                  as of May 2008. (EPA OIG photo)
                      U.S. Environmental Protection Agency                                                10-P-0218 

                      Office of Inspector General                                                  September 8, 2010





                      At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This Review           Independent Ground Water Sampling Generally
The Office of Inspector          Confirms EPA’s Data at Wheeler Pit Superfund
General (OIG) is testing long-   Site in Wisconsin
term monitoring results at
Superfund sites the U.S.          What We Found
Environmental Protection
Agency (EPA) has deleted         With minimal exceptions, our independent sampling results at the Wheeler Pit
from the National Priorities     Superfund Site were consistent with the sampling results that EPA Region 5 has
List. Wheeler Pit, located       obtained historically. Among 135 contaminants that OIG compared, 8 were
near Janesville, Wisconsin, is   different from the region’s results for some wells. The differences found among
one of eight sites being         the eight contaminants do not have adverse implications for Site protectiveness,
reviewed. In May 2008, the       because there are either no applicable standards or the levels of the contaminants
OIG obtained Site ground         were below applicable standards. Our site inspection showed the Site was
water samples and a sample       properly maintained and secured.
from a nearby residential well
and conducted a site             Our analysis of site data identified three contaminants – di(2-ethylhexyl) phthalate
inspection.                      (DEHP), nickel, and nitrate – that exceeded safe drinking water standards in some
                                 wells. Because the OIG found excess levels of DEHP and nitrate in one
Background                       residential well, OIG notified the resident in coordination with Region 5. Site
                                 records support Region 5’s assertions that exceedances of nickel and nitrate do not
Wheeler Pit received paint       have adverse implications for Site protectiveness, because these contaminants
sludge and coal ash from an      either do not originate from the Site or are contained by the Site remedy.
automobile assembly plant.
Site wastes were consolidated    In addition to the OIG’s detection of DEHP in one residential well, DEHP has a
and capped. The Site was         history of detection below the limit in some of the Site’s ground water monitoring
added to the National            wells. The responsible party’s contractor at Wheeler Pit has asserted that the
Priorities List in 1984 and      presence of DEHP is due to sampling or laboratory contamination and the region
deleted in 2004 when EPA         has consistently accepted the explanation, but there is no documentation to support
determined that clean-up goals   that DEHP is not site related. Therefore, it is unclear whether excess levels of
had been achieved.               DEHP found in one residential well have implications for Site protectiveness.

                                  What We Recommend
For further information,
contact our Office of
Congressional, Public Affairs    We recommend that EPA Region 5 conduct additional sampling on the residential
and Management at                well with excess DEHP to verify the Region’s assertion that DEHP is originating
(202) 566-2391.
                                 from the sampling process. Region 5 reviewed our draft report, concurred with
To view the full report,         our findings and recommendation, and proposed an acceptable corrective action.
click on the following link:
www.epa.gov/oig/reports/2010/
20100908-10-P-0218.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                   THE INSPECTOR GENERAL



                                         September 8, 2010

MEMORANDUM

SUBJECT:	              Independent Ground Water Sampling Generally Confirms
                       EPA’s Data at Wheeler Pit Superfund Site in Wisconsin
                       Report No. 10-P-0218


FROM:	                 Arthur A. Elkins, Jr.
                       Inspector General

TO:                    Susan Hedman
                       Region 5 Administrator


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains the findings from our
sampling at the Wheeler Pit Superfund Site and corrective actions the OIG recommends.
EPA Region 5 concurred with and provided corrective action for the recommendation of the
draft report. This report represents the opinion of the OIG and does not necessarily represent the
final EPA position. Final determinations on matters in this report will be made by EPA
managers in accordance with established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time, then adding in the contractor costs –
is $359,852.

Action Required

Your office has provided a complete and acceptable corrective action. Therefore, your office is
not required to submit a 90-day response to this report. Your office should appropriately update
the Management Audit Tracking System to provide information on the completion of the
September 15, 2011, sampling activities. If your office believes it necessary to modify the
agreed-to corrective plan, it should consult with OIG in advance. We have no objections to the
further release of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum,
Assistant Inspector General, at (202) 566-0832 or najjum.wade@epa.gov; or Carolyn Copper,
Director for Program Evaluation, Hazardous Waste Issues, at (202) 566-0829 or
copper.carolyn@epa.gov.
Independent Ground Water Sampling Generally Confirms                                                                          10-P-0218
EPA’s Data at Wheeler Pit Superfund Site in Wisconsin




                                      Table of Contents 

   Purpose .......................................................................................................................   1


   Background .................................................................................................................      1    


   Noteworthy Achievements .........................................................................................                 1    


   Scope and Methodology.............................................................................................                2    


   Sampling Results ........................................................................................................         3    


   Recommendation ........................................................................................................           4    


   EPA Region 5 Response and OIG Evaluation .........................................................                                4    


   Status of Recommendations and Potential Monetary Benefits..............................                                           5    




Appendices 

   A       EPA Region 5 Response to Draft Report .........................................................                           6


   B       Distribution .........................................................................................................    8    

                                                                                        10-P-0218



Purpose
The Office of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA) is
evaluating long-term monitoring at Superfund sites deleted from the National Priorities List
(NPL). This evaluation is to determine whether EPA has valid and reliable data on the
conditions of these sites. Wheeler Pit Superfund Site is one of eight sites being reviewed. At
Wheeler Pit, we collected ground water samples and conducted a site inspection. We compared
our results to past results reported by EPA Region 5.

Background

Wheeler Pit Superfund Site is located in rural La Prairie Township, approximately 1.5 miles east
of the City of Janesville, Wisconsin. The Site covers 3.82 acres within a larger abandoned sand
and gravel pit. Adjacent to the Site to the northeast is a small asphalt plant that is still in
operation. The surrounding land use is primarily agricultural. Wheeler Pit received an estimated
22.3 million gallons of paint sludge, residue from the part hanger stripping system, clarifier
sludges, and coal ash disposed by an automotive manufacturer from 1960 to 1974.

The Site was placed on the Superfund NPL in 1984. In 1990, EPA issued a Record of Decision
describing the clean-up goals and actions to be taken. In 1992, the responsible party conducted
remedial actions, which included placing a Resource Conservation and Recovery Act Subtitle D
cap over the waste. In addition, a long-term monitoring program was established to evaluate
performance of the remedy and the state of natural attenuation. EPA deleted Wheeler Pit from
the NPL in April 2004, signifying that clean-up goals had been achieved.

Using data and information obtained from the long-term monitoring program, Region 5 must
evaluate the Site at least once every 5 years to determine if it is protective of human health and
the environment. The results of this determination are reported in a publicly released Five-Year
Review report. In years when Region 5 conducts a review, all 15 Site ground water monitoring
wells and 2 residential wells are sampled. During those years not involving a review, the Region
annually samples 4 of the 15 wells. Region 5 has completed three reviews, the most recent in
2007.

Noteworthy Achievements
Region 5’s remedial construction activities included the following:

   •   Consolidating 36,400 cubic yards of material including waste
   •   Installing a clay cap over the waste and consolidated material
   •   Installing a fence around the entire site
   •   Constructing an access road, retention basin, and perimeter drainage swale
   •   Installing new monitoring wells and abandonment of older wells

The remedy was designed to eliminate or reduce migration of contaminants to the ground water
and to reduce the risks associated with exposure to the contaminated materials. Institutional



                                                1

                                                                                         10-P-0218



controls were established to limit access and restrict future land use of the Site. The remedy also
included monitoring ground water for natural attenuation, maintaining and monitoring effective
institutional controls, and site remedy components.

Scope and Methodology

We conducted our work in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform evaluations to obtain sufficient and appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our objectives. We reviewed relevant guidance and key historical
documents, including past sampling results and decision documents such as the Record of
Decision, Five-Year Reviews, operation and maintenance reports, and State regulations. We also
interviewed the remedial project managers from EPA Region 5 and the State project managers
from the Wisconsin Department of Natural Resources.

We conducted our work in two phases. During the first phase, from April to September 2008,
we conducted a site visit, collected ground water samples, and performed data validation on the
sample results. During the second phase of our work, from September 2009 to July 2010, we
analyzed and compared OIG’s data to Region 5’s sampling data and prepared the report.

We acquired a qualified environmental contractor to take ground water samples and conduct a
limited site inspection. In May 2008, our contractor collected nine Site ground water samples
and a sample from a nearby residential well. The samples were analyzed using EPA-approved
methods for volatile organic compounds, semivolatile organic compounds, metals, and inorganic
nonmetals. A limited site inspection was conducted by OIG staff and the contractor. OIG staff
members were present during the contractor’s inspection and sampling to ensure that proper
sampling and site inspection quality assurance protocols were followed.

We compared our sampling data to Region 5’s historic sampling data to determine whether the
region has been obtaining valid and reliable data on the conditions at the Site. We also analyzed
our results in the context of the National Primary Drinking Water standards and Wisconsin
ground water quality standards. The Record of Decision establishes that applicable or relevant
and appropriate requirements for ground water are both federal and State standards. Wisconsin’s
Enforcement Standards are the enforceable standards, because they pertain to ground water
quality. The federal Maximum Contaminant Levels are the drinking water standards for the
residential well we sampled.

To accomplish the comparisons between OIG’s and the Region’s sampling data, we compared
our sampling results to the Region’s 2002 and 2007 historical sampling data. OIG sampling
results that were greater than 2 standard deviations above the average regional historical
concentrations were considered different. Our review did not include an evaluation of the
reasons for these differences. However, where we observed differences, we determined whether
the OIG data indicated that there was an adverse implication for Site protectiveness.




                                                 2

                                                                                          10-P-0218



A draft of this report was sent to the Region 5 Administrator for official comment. Region 5’s
comments on the draft report are in Appendix A.

Sampling Results

With minimal exceptions, OIG’s independent sampling results at the Wheeler Pit Superfund Site
were consistent with the sampling data that EPA Region 5 has obtained historically. We
compared OIG results for 135 compounds in each of the 10 wells we sampled and found that 127
of the contaminants had historic data similar to OIG data. The following 8 contaminants were
found to be different in one or more of the 10 wells we sampled: barium, calcium, chemical
oxygen, iron, magnesium, sodium, sulfate, and zinc. However, these differences do not have
adverse implications for Site protectiveness. Calcium, chemical oxygen, magnesium, and
sodium have no standards. Iron, sulfate, barium, and zinc were below the applicable, or most
conservative, federal or State standards.

Comparison of OIG results to applicable standards showed three compounds that exceeded the
standards: di(2-ethylhexyl) phthalate (DEHP), nitrate, and nickel. Elevated levels of DEHP and
nitrate were found in a residential well. In coordination with Region 5, OIG notified the resident
by letter of the DEHP and nitrate exceedances and referred the resident to Region 5 for health or
Site-related questions.

The responsible party’s contractor has also detected DEHP in past sampling actions. When
DEHP was detected, the responsible party’s contractors attributed it to a residue from the
sampling procedures (i.e., field blank contamination or laboratory contamination). DEHP is
commonly used in the manufacture of plastics. The responsible party’s contractor has asserted
that DEHP contamination originated from plastic materials used in the environmental sampling
and analysis process, and the region has consistently accepted the explanation. However, there is
no documentation to support the contention that DEHP is not site related and is exclusively an
artifact of environmental sampling. Therefore, it is not clear what impact DEHP has on Site
protectiveness.

A Site manager stated that the nitrate levels are not originating from the Site but instead are due
to agricultural impacts in the area. He further noted that nitrate concentrations in one of the Site
background monitoring wells also exceeded ground water standards. The background
monitoring well is located up-gradient from the Site and represents ground water conditions that
exist before ground water passes through the Site. These conditions are consistent with an offsite
source for the nitrate.

OIG sample results showed nickel exceeded State standards in two onsite monitoring wells and
elevated nickel levels were also found in Region 5’s 2002 and 2007 samples from the same
wells. Region 5 managers stated that because the nickel was found only in onsite wells, the
nickel had no impact on the Site’s protectiveness because it was being contained by the Site
remedy. The regional remedial project manager also added that EPA would be conducting a
human health risk assessment on nickel in the future.




                                                 3

                                                                                      10-P-0218



Recommendation

We recommend that the Region 5 Regional Administrator:

       1. 	 Conduct additional sampling on the residential well with excess DEHP to verify the
            Region’s assertion that DEHP is originating from the sampling process.

EPA Region 5 Response and OIG Evaluation

The EPA Region 5 Administrator reviewed our draft report and concurred with our findings and
recommendation. Region 5 proposed additional sampling of the residential well to be completed
by September 15, 2011. OIG accepts this corrective action.




                                               4

                                                                                                                                      10-P-0218



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed To
    No.      No.                         Subject                          Status1        Action Official          Date      Amount      Amount

     1        4     Conduct additional sampling on the residential well     O        Regional Administrator,   9/15/2011
                    with excess DEHP to verify the Region’s assertion                      Region 5
                    that DEHP is originating from the sampling
                    process.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                5

                                                                                              10-P-0218



                                                                                          Appendix A

              EPA Region 5 Response to Draft Report

                           UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                                REGION 5 

                                      77 WEST JACKSON BOULEVARD 

                                          CHICAGO, IL 60604-3590



                                                 August 12, 2010


MEMORANDUM

Subject:                Response to Office of Inspector General’s Draft Evaluation Report: Independent
                        Groundwater Sampling Generally Confirms EPA’s Data at Wheeler Pit
                        Superfund Site in Wisconsin
                        Project No. 2008-547

From:                   Susan Hedman /s/
                        Regional Administrator

To:                     Carolyn Copper
                        Director of Hazardous Waste Issues
                        Office of Program Evaluation

         The purpose of this memorandum is to provide the United States Environmental Protection
Agency (EPA) Region 5’s response to the Office of Inspector General’s (OIG) Draft Evaluation Report
entitled “Independent Groundwater Sampling Generally Confirms EPA’s Data at Wheeler Pit Superfund
Site in Wisconsin” (Project No. 2008-547), dated July 28, 2010. Region 5 concurs with the findings and
recommendation in the draft evaluation report. Our responses are as follows:

Factual Accuracy

         Region 5 reviewed the draft evaluation report for factual accuracy and found the report to be
accurate in comparison with the September 1990 Wheeler Pit Record of Decision (EPA Region 5, 1990),
other technical documents utilized and interviews conducted by OIG that are cited.

Concurrence with Findings and Recommendation

         Region 5 concurs with the findings and recommendation in the draft evaluation report. OIG’s
Draft Evaluation Report included a recommendation to conduct additional sampling on the residential
well with excess di(2-ethylhexyl) phthalate (DEHP) to verify the Region’s assertion that DEHP is
originating from the sampling process. Region 5 plans to conduct additional sampling on the residential
well with excess DEHP in the near future by using an EPA Region 5 Superfund Technical Assistance
Team (STAT) contractor. Region 5 will notify OIG, once the additional sampling is completed.




                                                    6

                                                                                            10-P-0218




Planned Schedule for Recommendation

        Region 5 plans to complete the sampling on the residential well with excess DEHP at Wheeler Pit
by September 15, 2011.

      Please contact me at (312) 886-3000 or hedman.susan@epa.gov; or Karen Mason-Smith,
Remedial Project Manager at (312) 886-6150 or mason-smith.karen@epa.gov, if you have any questions.

Cc: P. Milligan, OIG




                                                   7

                                                                                   10-P-0218


                                                                               Appendix B

                                    Distribution

Office of the Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Regional Administrator, Region 5
Principal Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Director, Office of Superfund Remediation and Technology Innovation, Office of Solid Waste
       and Emergency Response
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Region 5
Inspector General




                                             8

